TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Wage and Investment Division
                       Automated Underreporter Telephone
                        Operations Could Improve Service
                                  to Taxpayers



                                      September 13, 2006

                              Reference Number: 2006-40-138




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 13, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Wage and Investment Division Automated
                               Underreporter Telephone Operations Could Improve Service to
                               Taxpayers (Audit # 200540026)

 This report presents the results of our review to determine whether the Wage and Investment
 (W&I) Division provides timely and adequate toll-free telephone access for taxpayers requesting
 assistance on Automated Underreporter (AUR) Program cases.1

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) issues AUR Program notices informing taxpayers of
 discrepancies it found when matching information return data received from third parties with
 income and deductions reported on tax returns. It is important that taxpayers have an adequate
 level of telephone access to confirm or correct the information on the notices so that the correct
 tax liability can be determined. Our review determined that the IRS needs to improve the level
 of telephone service provided to these taxpayers.

 Synopsis
 Since 1998, the IRS has been providing direct AUR toll-free telephone service to taxpayers who
 have questions about AUR Program notices they received. AUR Program management has
 implemented a number of initiatives to improve the performance of the AUR toll-free telephone
 system. A new Universal Call Routing system allows for more efficient use of available
 telephone assistors. Any incoming call can now be handled by an assistor at any of the three

 1
  The Internal Revenue Service issues AUR Program notices informing taxpayers of discrepancies it found when
 matching information return data received from third parties with income and deductions reported on tax returns.
                                    The Wage and Investment Division
                              Automated Underreporter Telephone Operations
                                   Could Improve Service to Taxpayers


W&I Division AUR Program call sites. Previously, the calls went to specific AUR Program call
sites based on the area code of the incoming call. This centralized call management system will
simplify the maintenance of the automated menus and messages on the toll-free system. AUR
Program management also improved the
automated menus and messages to address
customer concerns raised about their                  Increasing the Level of Service would
effectiveness.                                          help to reduce taxpayer burden in
                                                                        resolving AUR Program
The AUR Program should take further action to             discrepancies. During FY 2005,
increase the Level of Service provided to                 214,556 callers hung up without
taxpayers who use the AUR toll-free telephone         receiving  assistance and an additional
                                                           191,950 received busy signals.
system. The basic Level of Service computation
is the number of calls answered divided by the
number of available calls.2 The W&I Division
AUR Program averaged a 71 percent Level of
Service for Fiscal Year (FY) 2005. AUR Program management established a 75 percent Level
of Service goal for FY 2006. For the first 6 months of FY 2006, the AUR Program averaged a
61 percent Level of Service. An increase in the number of AUR Program notices sent to
taxpayers and the resulting unanticipated increase in call volumes appear to have contributed to
the lower Level of Service in the second quarter of FY 2006.
AUR Program management has not established goals for monitoring the Level of Service
provided to Spanish-speaking callers, who were often unable to obtain access to bilingual
assistors. During FYs 2003–2005, only 40 percent of the callers requesting a Spanish-speaking
assistor were able to speak with one. The AUR Program did not have enough bilingual assistors
to handle the number of incoming Spanish calls. In addition, the Atlanta, Georgia, call site did
not have any bilingual assistors. The Spanish-speaking callers to this call site were given the
options of speaking to an English-speaking assistor or calling back with an interpreter.
Most bilingual assistors volunteer to answer telephone calls in Spanish. The voluntary nature of
this AUR Program telephone assignment is limiting the IRS’ ability to provide an adequate Level
of Service. The assistors are generally on the telephones for only a portion of the day. In
addition, due to assistors’ work schedules, call sites often have problems providing bilingual
assistors late in the afternoon when incoming call volumes are peaking.
The Universal Call Routing system should help improve the Level of Service to
Spanish-speaking taxpayers once enough bilingual assistors are provided. The Spanish calls that
previously would have gone to the Atlanta call site and would not have received bilingual
assistance are now put into the queue to be answered by bilingual assistors at the other two call


2
 There are adjustments made to this computation to account for several factors (busy signals, hang-ups, etc.) to
arrive at the actual Level of Service measure.
                                                                                                                   2
                               The Wage and Investment Division
                         Automated Underreporter Telephone Operations
                              Could Improve Service to Taxpayers


sites. Also, the new system puts many of the Spanish-speaking callers in the queue waiting for
an available assistor. However, due to the limited availability of assistors, Spanish-speaking
callers are waiting in the queue longer in FY 2006, and 37 percent ultimately hang up while
waiting for assistance.

Recommendations
We recommended the Commissioner, W&I Division, increase the Level of Service goal for the
AUR toll-free telephone operations to help ensure it is commensurate with that provided by other
IRS toll-free operations; increase the number of bilingual AUR Program assistors available to
handle the demand from Spanish-speaking taxpayers, revise the AUR Program tax examiner
position description to specifically include telephone duties, adopt more precise scheduling and
assignment practices; and establish specific goals and measures for the Spanish-language
services provided on the AUR toll-free telephone lines.

Response
IRS management agreed with our second recommendation. The Director, Compliance,
W&I Division, has recently hired 10 bilingual telephone assistors and will continue to evaluate
the need for more assistors. The position description for AUR Program tax examiners is being
revised to include telephone duties. In addition, AUR Program management is conducting
studies to improve forecasting of call volumes to ensure precise scheduling and assignment
practices.
However, IRS management did not agree that the AUR Program Level of Service should be
commensurate with other IRS telephone operations or private industry call sites because the
AUR Program is not exclusively a telephone operation. The AUR Program is responsible for
providing balanced quality service to both taxpayers responding by telephone and through
correspondence. AUR Program management has implemented a new case selection tool and the
Universal Call Routing system to improve AUR Program operations. In addition, AUR Program
management is studying the effect the new processes have had on telephone call volumes and
schedules. Because they disagreed with our recommendation, IRS management also disagreed
with our outcome measure.
Lastly, in relation to Spanish-speaking callers, IRS management stated that, with the migration of
AUR toll-free telephone lines to the Universal Call Routing system, information is not yet
available to establish additional measures. Once they have sufficient information, they will be
able to determine whether additional measures are justified and determinable. In the meantime,
they are committed to their goal of providing excellent service to all taxpayers. Management’s
complete response to the draft report is included as Appendix V.


                                                                                                  3
                               The Wage and Investment Division
                         Automated Underreporter Telephone Operations
                              Could Improve Service to Taxpayers



Office of Audit Comment
Because AUR Program notices propose additional taxes and seek additional information from
taxpayers to confirm or correct the information on the notices, we continue to believe the IRS
should strive to provide a Level of Service at least as high as its other toll-free telephone
operations. Providing balanced quality service to both taxpayers responding by telephone and
through correspondence is applicable to account inquiries in numerous IRS functions. As such,
we do not believe this is an adequate basis for expecting taxpayers to wait significantly longer
for inquiries related to AUR Program notices. Further, IRS internal documents indicate
W&I Division management believes having an improved level of telephone service provides for
a more efficient use of its limited resources. In the May 2006, Business Performance Review,
W&I Division management stated their “commitment this year to close more cases via the
telephone, which not only improves customer satisfaction and is more efficient, but also greatly
reduces the amount of correspondence, and hence the number of times we must touch a case.”
Therefore, we believe our recommendation and associated outcome measure are still valid.
The AUR toll-free telephone system currently provides enough data to provide a rudimentary
measure of the effectiveness of providing Spanish-language services in the AUR Program.
Although it may take time to establish specific goals, these measures should be immediately
established to ensure that the AUR Program is providing excellent service to Spanish-speaking
callers.
The IRS actions to increase the number of bilingual assistors should help improve its Level of
Service. However, we are concerned that management has not established goals to monitor
Spanish-speaking caller activity to ensure adequate access to bilingual assistors. In
FYs 2003–2005, approximately 90,000 Spanish-speaking callers were unable to speak with a
bilingual assistor. Without goals and actions to monitor the Level of Service, AUR Program
management will not be able to identify whether Spanish-speaking callers have a sufficient level
of access to a bilingual assistor. Only 60,382 (40 percent) of the 150,623 callers requesting a
Spanish-speaking assistor in FYs 2003–2005 were able to speak to a bilingual assistor.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                   4
                                         The Wage and Investment Division
                                   Automated Underreporter Telephone Operations
                                        Could Improve Service to Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Automated Underreporter Program Management Has Implemented
          a Number of New Initiatives to Improve Service .........................................Page 3
          Further Action Is Needed to Increase the Automated Underreporter
          Program Level of Service .............................................................................Page 4
                    Recommendation 1:........................................................Page 7

          Spanish-Speaking Taxpayers Were Often Unable to Obtain
          Access to Bilingual Assistors........................................................................Page 8
                    Recommendation 2:........................................................Page 13

                    Recommendation 3:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measure ................................................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 21
                                The Wage and Investment Division
                          Automated Underreporter Telephone Operations
                               Could Improve Service to Taxpayers




                                      Background

The Automated Underreporter (AUR) Program provides toll-free telephone assistance for
taxpayers who have questions on AUR Program notices they receive. The Internal Revenue
Service (IRS) issues AUR Program notices informing taxpayers of discrepancies it found when
matching information return data received from third parties with income and deductions
reported on tax returns. For
example, if a financial
institution reports to the IRS
that it paid interest or
dividends to a taxpayer, but
the taxpayer either does not
report the income or reports a
different amount on his or her
income tax return, the IRS
will issue a notice
(i.e., Computer Paragraph
(CP) 2501 or CP 2000) to the
taxpayer to resolve the discrepancy. This process may result in an assessment of additional tax if
the amount was initially unreported or underreported by the taxpayer.
The concept of matching information returns to self-reported items on a taxpayer’s return was
originally developed by the IRS in the 1960s. In 1986, the IRS began the development of an
AUR system designed to address the shortcomings of the previous manual underreporter
program by automating case development and providing interactive case analysis and processing,
automated case control, and management information systems.
In 1998, the AUR Program began to test and implement toll-free numbers for direct AUR
telephone assistance. Prior to this, notices directed taxpayers to call the general IRS toll-free
assistance tax information number. When the taxpayer called this number, the assistors did not
have the resources to assist the taxpayer. The cases had to be referred to an AUR Program unit
to have a tax examiner call the taxpayer. This caused redundant work and telecommunications
costs from which neither the IRS nor the taxpayers received benefit.
The AUR toll-free telephone system provides both automated and direct verbal assistance to
callers. For example, the AUR toll-free telephone system provides recorded responses to general
questions about how and where to make payments and the status of the taxpayer’s case. Callers
may choose to listen to these messages in either English or Spanish. If callers do not get their
questions answered in the automated system, they may request to speak directly to an IRS
employee (assistor). The call may then be transferred directly to an assistor or be placed in a

                                                                                            Page 1
                                The Wage and Investment Division
                          Automated Underreporter Telephone Operations
                               Could Improve Service to Taxpayers



queue of calls waiting for an assistor to answer at one of the AUR Program call sites. The IRS
provides both English- and Spanish-speaking (i.e., bilingual) assistors. Our review focused on
the service provided when taxpayers requested to speak with an assistor.
The IRS has been providing direct AUR toll-free telephone assistance since 1998. The Wage
and Investment (W&I) Division of the IRS manages three AUR Program call sites. The
Fresno, California, and Austin, Texas, call sites have both English- and Spanish-speaking
(bilingual) assistors. The Atlanta, Georgia, call site has only English-speaking (nonbilingual)
assistors.
This review was performed at the W&I Division Headquarters in Atlanta, Georgia, in the
Reporting Compliance function, at the Joint Operations Center in Atlanta, Georgia, and at the
Atlanta, Georgia; Austin, Texas; and Fresno, California, AUR Program call sites during the
period April 2005 through June 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                               The Wage and Investment Division
                         Automated Underreporter Telephone Operations
                              Could Improve Service to Taxpayers




                                Results of Review

Automated Underreporter Program Management Has Implemented a
Number of New Initiatives to Improve Service
AUR Program management has implemented a number of initiatives to improve the performance
of the AUR toll-free telephone system. Following are some initiatives identified by
AUR Program management as providing notable benefits.
     Universal Call Routing – To provide taxpayers with improved toll-free telephone access
     to AUR Program assistors, the IRS implemented the Universal Call Routing system
     (a centralized call management system) in the AUR Program in January 2006. Under the
     new system, a centralized site will manage all incoming taxpayer calls. When taxpayers
     need to speak to an assistor, the calls are now routed to any of the three call sites based on
     the availability of assistors. Prior to January 2006, calls were handled at each call site
     based on the area code of the incoming call. Assistor availability and specific hours of
     operation at each call site limited taxpayer access. The Universal Call Routing system will
     expand the AUR toll-free telephone system hours of operation and assistor availability
     nationwide.
     In addition, this centralized call management system will maintain and update the
     automated menus and messages of the AUR toll-free telephone system. Centralizing this
     process will be more efficient than managing and updating the messages at three different
     sites. These changes will be transparent to callers.
     Updated Automated Menus and Messages – Over the last several years, a contractor
     hired by the IRS has sent out Customer Satisfaction Surveys periodically to a sample of
     taxpayers that have had direct contact with the IRS. The purpose of these Surveys is to
     measure taxpayer satisfaction with the various services provided by the IRS. Since
     Fiscal Year (FY) 2002, taxpayers have consistently complained on the Surveys that the
     automated menus and messages on the AUR toll-free telephone system were confusing. In
     FY 2005, AUR Program management began working to improve the information provided
     to taxpayers using the automated information on their toll-free telephone lines. In
     January 2006, the automated menus and messages were updated to reduce taxpayer
     confusion and provide taxpayers faster access to needed information.




                                                                                            Page 3
                                    The Wage and Investment Division
                              Automated Underreporter Telephone Operations
                                   Could Improve Service to Taxpayers



Further Action Is Needed to Increase the Automated Underreporter
Program Level of Service
The Level of Service in answering telephone calls is the IRS’ primary measure of providing
taxpayers with access to a live assistor. The basic Level of Service computation is the number of
calls answered divided by the number of available calls.1 In FY 2005, the AUR Program Level
of Service provided to taxpayers averaged 71 percent; for the first 6 months of FY 2006, it
averaged 61 percent. During FY 2005, there was no formal Level of Service goal; however, the
AUR Program monitored performance as it tried to achieve a 75 percent Level of Service. For
FY 2006, a 75 percent Level of Service goal was established. AUR Program management
anticipated productivity gains in January 2006 due to a reduction in the number of taxpayers
receiving busy signals when the Universal Call Routing system was implemented. However,
these gains have not been realized consistently.
The AUR Program call sites experienced a 56 percent increase in taxpayer call volumes during
the first 6 months of FY 2006 in comparison to the last fiscal year. Additional taxpayers were
calling because the AUR Program had issued 39 percent more notices during these first
6 months. AUR Program management scheduled more notices to be issued to meet their
FY 2006 case closure goal, which included an additional 100,000 cases over the goal for
FY 2005. In addition, a Modernization and Information Technology Services organization
programming problem prevented scheduled notices from being issued during December 2005
and January 2006. As a result, AUR Program management significantly increased the number of
notices issued during subsequent months to keep on schedule. Also, more notices were issued in
FY 2006 as a result of employees resolving fewer discrepancies during the initial screening of
the taxpayers’ tax returns.
AUR Program management stated they had updated the forecasted weekly call volumes and
scheduled assistor resources to address anticipated additional taxpayer calls made in response to
the increased notices. However, the actual call volume statistics indicated that far more
taxpayers than forecasted called in response to the notices. As a result, during the 4-week period
beginning December 25, 2005, the daily Level of Service provided to taxpayers averaged
51 percent and ranged from 17 percent to 80 percent. The Level of Service fluctuated based on
the number of telephone calls that resulted from the number of notices issued. Figure 1 presents
the average Level of Service provided to taxpayers during the first 9 months of FY 2006.




1
 There are adjustments made to this computation to account for several factors (busy signals, hang-ups, etc.) to
arrive at the actual Level of Service measure.
                                                                                                             Page 4
                                 The Wage and Investment Division
                           Automated Underreporter Telephone Operations
                                Could Improve Service to Taxpayers



                         Figure 1: Average Level of Service
               Provided to Taxpayers for the First 9 Months of FY 2006

                            Month                            Average Level of Service

                        October 2005                                  75 percent
                        November 2005                                 81 percent
                        December 2005                                 69 percent
                        January 2006                                  44 percent
                        February 2006                                 74 percent
                        March 2006                                    55 percent
                        April 2006                                    64 percent
                        May 2006                                      72 percent
                        June 2006                                     64 percent
        Source: AUR Program telephone call data (Snapshot Report) provided by the Joint Operations
        Center.

Although the Level of Service dramatically declined in January 2006, AUR Program
management increased the number of notices issued weekly from mid-January through March.
This resulted in the call sites continuing to experience difficulty in providing an appropriate
Level of Service through June 2006.
As of March 31, 2006, AUR Program management was exceeding their mid-year case closure
goal by 4 percent. Despite this, many taxpayers that received notices were unable to gain
assistance from the call sites. During the first 6 months of FY 2006, 165,766 taxpayers hung up
before reaching an assistor, and another 120,755 received busy signals. Assistors did provide
assistance to 401,520 taxpayers. However, taxpayers waited a long time to speak to an assistor.
The average speed of answering calls increased to 14 minutes compared to 11 minutes during
FY 2005.
This increase in call volumes contributed to the lower Level of Service in the second quarter of
FY 2006. Figure 2 shows the Level of Service for FYs 2003, 2004, and 2005 and the first
6 months of 2006.




                                                                                                     Page 5
                                                      The Wage and Investment Division
                                                Automated Underreporter Telephone Operations
                                                     Could Improve Service to Taxpayers



                                           Figure 2: Level of Service Provided to Taxpayers


                                    100%
         Percentage of Population




                                    75%
                                                        73%        71%
                                               69%
                                                                           61%
                                    50%
                                                                                        Level of Service
                                                                                        Percentage
                                    25%


                                     0%
                                             2003      2004      2005    2006
                                                         Fiscal Year

     Source: Reporting Compliance - Document Matching - PAC 7E Report through April 1, 2006, and
     AUR Program call site telephone measures, FY 2003.

AUR Program management stated their long term goal was to have an 80 percent Level of
Service, which they hoped to achieve in a couple of years. The IRS has its Level of Service
goals for other toll-free telephone operations at over 80 percent. For example, the IRS’ FY 2006
Level of Service goal for the Customer Account Services function toll-free telephone lines for
taxpayers seeking assistance in understanding the tax law is 82 percent.
AUR Program management does not expect that they will be able to meet the 75 percent goal for
FY 2006 as a whole due to the low Level of Service already experienced. They stated that they
were taking steps to improve the Level of Service by applying more resources to the telephone
activity, looking closely at assumptions used to forecast expected call volumes, and evaluating
the resources needed to meet service levels.
Although there is no set standard for answering telephone calls, a study conducted by the State of
California Franchise Tax Board found that the average service level for private sector businesses
and Government agencies was 80 percent of calls answered within 120 seconds.
Increasing the Level of Service would allow more taxpayers to timely access an assistor to
resolve discrepancies and to reach agreement as to whether additional tax is owed. During
FY 2005, 214,556 callers hung up without receiving assistance and an additional
191,950 received busy signals. Figure 3 shows the number of callers requesting assistance
compared to the number of callers receiving assistance and the number of callers who hung up.

                                                                                                           Page 6
                                      The Wage and Investment Division
                                Automated Underreporter Telephone Operations
                                     Could Improve Service to Taxpayers



                               Figure 3: Callers Requesting Assistance

                                                   FY 2003            FY 2004            FY 2005           FY 20062

 Callers Who Requested an Assistor                 575,016            833,571          1,086,851            567,286
 Calls Handled by an Assistor                      440,105            658,978            872,295            401,520
 Callers Who Hung Up Before
                                                   134,911            174,593            214,556            165,766
 Reaching an Assistor
Source: AUR Program telephone call data on the Joint Operations Center web site.

 Difficulties in responding to notices can result in additional burden to taxpayers. If taxpayers do
 not respond within the time period specified on the AUR Program notice, they can be assessed
 additional tax. During FY 2005, 652,365 taxpayers did not respond to a Statutory Notice of
 Deficiency3 issued by the AUR Program and were assessed additional tax. While the amounts
 assessed may be correct in many of these instances, there are also instances in which additional
 information provided by the taxpayer may have reduced or eliminated the amount of the
 discrepancy. Had the AUR Program maintained an 80 percent Level of Service in its telephone
 operations, we estimate an additional 83,295 taxpayers4 could have been afforded the opportunity
 to resolve their discrepancies in each of the past 3 years. Because this condition will continue to
 occur if not corrected, we estimate an additional 416,475 taxpayers could be provided service
 over the next 5 years if AUR Program management increases the Level of Service to 80 percent.
 The IRS should ensure taxpayers attempting to resolve AUR Program notices receive a Level of
 Service commensurate with that provided to taxpayers with other types of inquiries. This would
 help to ensure the correct amount of tax is assessed.

 Recommendation
 Recommendation 1: The Commissioner, W&I Division, should increase the Level of Service
 goal for the AUR toll-free telephone operations to help ensure it is commensurate with that
 provided by other IRS toll-free telephone operations.
          Management’s Response: IRS management did not agree that the AUR Program
          Level of Service should be commensurate with other IRS telephone operations or private
          industry call sites because the AUR Program is not exclusively a telephone operation.
          The AUR Program is responsible for providing balanced quality service to both taxpayers

 2
   These numbers are for the first 6 months of FY 2006.
 3
   A Statutory Notice of Deficiency is a legal notice that notifies the taxpayer a tax deficiency exists and the taxpayer
 is liable for the payment of tax.
 4
   Unique caller information is not available to determine the impact of repeat callers. Therefore, we made the
 assumption that each telephone call equates to one taxpayer.
                                                                                                                 Page 7
                                    The Wage and Investment Division
                              Automated Underreporter Telephone Operations
                                   Could Improve Service to Taxpayers



        responding by telephone and through correspondence. AUR Program management has
        implemented a new case selection tool and the Universal Call Routing system to improve
        AUR Program operations. In addition, AUR Program management is studying the effect
        the new processes have had on telephone call volumes and schedules. Because they
        disagreed with our recommendation, IRS management also disagreed with our outcome
        measure.
Office of Audit Comment: Because AUR Program notices propose additional taxes and seek
additional information from taxpayers to confirm or correct the information on the notices, we
continue to believe the IRS should strive to provide a Level of Service at least as high as its other
toll-free telephone operations. Providing balanced quality service to both taxpayers responding
by telephone and through correspondence is applicable to account inquiries in numerous IRS
functions. As such, we do not believe this is an adequate basis for expecting taxpayers to wait
significantly longer for inquiries related to AUR Program notices. Further, IRS internal
documents indicate W&I Division management believes having an improved level of telephone
service provides for a more efficient use of its limited resources. In the May 2006, Business
Performance Review, W&I Division management stated their “commitment this year to close
more cases via the telephone, which not only improves customer satisfaction and is more
efficient, but also greatly reduces the amount of correspondence, and hence the number of times
we must touch a case.” Therefore, we believe our recommendation and associated outcome
measure are still valid.

Spanish-Speaking Taxpayers Were Often Unable to Obtain Access to
Bilingual Assistors
In the IRS Restructuring and Reform Act of 1998 (RRA 98),5 Congress recognized the need to
provide a growing Spanish-speaking population with improved income tax assistance using
telephone helplines. RRA 98 Section 3705(c) states “The Secretary of the Treasury . . . shall
provide, in appropriate circumstances, that taxpayer questions on telephone helplines of the
Internal Revenue Service are answered in Spanish.” This provision of the RRA 98 had an
effective date of January 1, 2000. Accordingly, the IRS published its Multilingual Policy (dated
October 1999), with a commitment to ensure the IRS had the necessary tools to interact with a
diverse population regardless of their inability to understand and speak English. Furthermore, in
August 2000, the President issued Executive Order 13166 to improve access to Federal
Government products and services for persons who, as a result of national origin, are limited in
their English proficiency.
The IRS’ AUR Multilingual Initiative (dated October 2003) concluded that there was a high rate
of success in explaining and resolving AUR Program notices verbally in Spanish during

5
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., and 49 U.S.C.).
                                                                                                             Page 8
                                   The Wage and Investment Division
                             Automated Underreporter Telephone Operations
                                  Could Improve Service to Taxpayers



telephone calls. The recommendation given in the study report stated, “With the noted success
rate of answering issues orally on the telephone in Spanish, the best approach may be to formally
implement a nationwide Spanish assistor call-in program for [the] AUR [Program].”
Nonetheless, the Level of Service provided on the AUR toll-free telephone lines for
Spanish-speaking callers has not been good. Only 60,382 (40 percent) of the 150,623 callers
requesting a Spanish-speaking assistor in FYs 2003–2005 were able to speak to a bilingual
assistor. Another 14,536 Spanish-speaking callers received assistance from nonbilingual
assistors. The remaining 75,705 Spanish-speaking callers did not receive any assistance.
Figure 4 shows the actual statistics for each year.
              Figure 4: Service to Callers Requesting Bilingual Assistance

                                                        FY 2003       FY 2004      FY 2005   Totals

 Callers Handled by Bilingual Assistors                   15,866        21,880     22,636     60,382
 Callers Handled by Nonbilingual Assistors                 2,036         5,769      6,731     14,536
 Callers Not Receiving Assistance                         17,650        28,243     29,812     75,705
 Totals                                                   35,552        55,892     59,179    150,623
Source: AUR Program telephone call data on the Joint Operations Center web site.

Spanish-speaking callers were unable to gain access to bilingual assistors because there were too
few bilingual assistors available to handle requests for assistance. This problem was not
highlighted because AUR Program management did not specifically monitor the service
provided to taxpayers calling for assistance in Spanish.
One reason it is difficult for the IRS to ensure the availability of enough bilingual assistors is its
scheduling and assignment practices. Not all of the bilingual AUR Program tax examiners were
assigned to work on the AUR toll-free telephone lines. Most bilingual assistors volunteered to
answer Spanish telephone calls. The AUR Program tax examiner position description does not
require AUR Program tax examiners to handle any telephone calls, including Spanish-speaking
calls. Telephone assistors volunteer to answer AUR toll-free telephone system calls for a portion
of the workday and do not generally do this on a full-time basis. An analysis of bilingual
assistors’ activity on random days indicated the Austin and Fresno call site bilingual assistors
were frequently not signed onto the system throughout the day. This was frequently an issue
during peak call volumes at the end of the workday because many bilingual assistors worked the
morning shift. Under centralized call routing, the Austin and Fresno call site volumes, including
Spanish-speaking calls, increase at the end of the workday as the Atlanta call sites closes and
calls are routed to other call sites. The Austin and Fresno call site managers confirmed there
were instances late in the afternoon when there were no bilingual assistors available to assist
Spanish-speaking taxpayers.

                                                                                               Page 9
                                 The Wage and Investment Division
                           Automated Underreporter Telephone Operations
                                Could Improve Service to Taxpayers



The voluntary nature of AUR toll-free telephone assignments is limiting the IRS’ ability to
provide an adequate Level of Service. We believe the IRS should adopt more precise scheduling
and assignment practices. Otherwise, there will be periods of time when there are either too few
or no bilingual assistors signed onto the system to answer questions from Spanish-speaking
callers. Answering taxpayers’ questions and resolving taxpayers’ discrepancies on the telephone
lines should be a primary duty of AUR Program tax examiners. AUR Program management
should increase the number of bilingual assistors available throughout the workday and revise
the duties in the AUR Program tax examiner position description.

The Universal Call Routing system will help to improve the Level of Service to
Spanish-speaking taxpayers once enough bilingual assistors are scheduled
nationwide
Prior to implementation of the Universal Call Routing system in January 2006, the significant
differences in the bilingual assistor staffing hours and call volumes at each call site resulted in
substantial variance in the service provided to Spanish-speaking taxpayers. Figure 5 shows the
number of AUR Program telephone assistors by call site. Figure 6 shows, also for each call site,
the percentage of taxpayers requesting a Spanish-speaking assistor who did not obtain assistance
during FY 2005.
              Figure 5: AUR Program Telephone Assistors per Call Site

             Call Site           English-Speaking Assistors         Bilingual Assistors

        Atlanta, Georgia                        98                         None
        Austin, Texas                           88                           7
        Fresno, California                     101                           16
      Source: Call site managers at each AUR Program call site.




                                                                                           Page 10
                                                        The Wage and Investment Division
                                                  Automated Underreporter Telephone Operations
                                                       Could Improve Service to Taxpayers



                                                    Figure 6: Spanish-Speaking Callers
                                                    Not Provided Assistance in FY 2005

                                        100%
             Percentage of Population




                                        80%
                                                 77%
                                                                                           Spanish-Speaking
                                        60%                                                Callers Not Provided
                                                                                           Assistance
                                                                                    50%
                                        40%                                 43%

                                        20%                24%


                                         0%
                                               Atlanta   Austin           Fresno   Total
                                                                  Sites

         Source: AUR Program telephone call data on the Joint Operations Center web site.

Prior to implementation of the Universal Call Routing system, the AUR Program call site
managers set the number of Spanish-speaking call lines based on the number of bilingual
assistors assigned to telephone duty. The intent was to limit the telephone calls to a number that
could be handled by bilingual assistors currently on the system. If there were no bilingual
assistors answering calls, the number was set to zero. The Atlanta call site did not have any
bilingual assistors.6 As such, this site set the number of Spanish-speaking call lines to zero.
Taxpayers who called the Atlanta call site requesting a Spanish-speaking assistor were given the
options of speaking to an English-speaking assistor or calling back with an interpreter. The
Austin call site managers stated they usually designated three to five lines for Spanish-speaking
callers, and the Fresno call site managers indicated they usually designated one to three lines.
There was no specific guidance to assist call site managers with determining the number of
bilingual assistors or lines needed to handle Spanish calls. If the bilingual call volumes reached
the maximum number of lines, a message informed the callers that a bilingual assistor was not
available. The message stated “There are currently no Spanish-speaking tax examiners available
to assist you with your call. Please try your call again later, or call back with an interpreter so
that you can be helped by an English-speaking tax examiner.”
With implementation of the Universal Call Routing system, if a caller requests a Spanish-
speaking assistor, the system will transfer the call to a bilingual assistor or to the queue to wait
for a bilingual assistor to become available. The system does not limit the number of calls

6
  Although the Atlanta call site did not have any bilingual assistors, 23 percent of the Spanish-speaking callers to
that site in FY 2005 received assistance from English-speaking assistors.
                                                                                                                  Page 11
                               The Wage and Investment Division
                         Automated Underreporter Telephone Operations
                              Could Improve Service to Taxpayers



waiting in the Spanish-call queue or limit the number of lines available to Spanish-speaking
callers as long as there are bilingual assistors available. The number of bilingual assistors
assigned at each call site is now set by AUR Program management. The Joint Operations Center
monitors call volumes and may direct the Austin and Fresno call sites to increase or decrease the
number of bilingual assistors assigned to answer AUR toll-free telephone calls each day,
depending on call traffic. Callers requesting bilingual assistance were routed to the Austin or
Fresno call sites for handling. During February 2006, an average of 14 bilingual assistors were
signed on answering Spanish calls for 2.9 hours each day, an increase over February 2005 when
an average of 12 bilingual assistors were signed onto the system for 2.5 hours each day.
The percentage of taxpayers who successfully obtained assistance from Spanish-speaking
assistors has improved slightly with the Universal Call Routing system. However, because there
were too few bilingual assistors to answer calls, a large percentage of Spanish-speaking
taxpayers hung up while waiting for an assistor without receiving service. During February
2006, after the Universal Call Routing system was implemented, only 57 percent of taxpayers
requesting a Spanish-speaking assistor received assistance from a bilingual assistor. Moreover,
taxpayers waited a long time to speak to a Spanish-speaking assistor. The average speed of
answering Spanish calls was 21 minutes in February 2006. Almost 37 percent of the Spanish-
speaking taxpayers hung up after waiting in the queue for an assistor. In addition, 5 percent
received the message that there were currently no Spanish-speaking tax examiners available and
hung up. Figure 7 shows the comparative percentages of Spanish-speaking taxpayers who hung
up without receiving service for the month after the Universal Call Routing system was
implemented compared to the prior fiscal year.




                                                                                         Page 12
                                                      The Wage and Investment Division
                                                Automated Underreporter Telephone Operations
                                                     Could Improve Service to Taxpayers



  Figure 7: Spanish-Speaking Callers Who Hung Up Without Receiving Service
           Percentage of Population




                                      60%

                                      50%          9%                        Hung Up While
                                                                             Waiting for an
                                      40%
                                                                             Assistor
                                      30%
                                                                   37%       Hung Up After
                                                  42%
                                      20%                                    Receiving Message
                                                                             That No Bilingual
                                      10%                                    Assistor Available
                                                                   5%
                                      0%
                                            Fiscal Year 2005 February 2006
                                                     Time Period

        Source: AUR Program telephone call data on the Joint Operations Center web site.

While AUR Program management monitored overall performance in an effort to achieve a Level
of Service of 75 percent, they have not established goals or monitored Spanish-speaking caller
activity to ensure callers have adequate access to bilingual assistors. In FYs 2003–2005,
approximately 90,000 Spanish-speaking callers were unable to speak with a bilingual assistor.
AUR Program management has not identified the problems Spanish-speaking callers
encountered trying to access a bilingual assistor. To comply with RRA 98 Section 3705(c) and
Executive Order 13166 and to help ensure Spanish-speaking callers receive a Level of Service
equivalent to the overall Level of Service provided on AUR toll-free telephone lines,
management should establish specific goals and measures for the Spanish-language services
provided on these telephone lines.

Recommendations
Recommendation 2: The Commissioner, W&I Division, should increase the number of
bilingual AUR Program assistors available to handle the demand from Spanish-speaking
taxpayers, revise the AUR Program tax examiner position description to specifically include
telephone duties, and adopt more precise scheduling and assignment practices.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Compliance, W&I Division, has recently hired 10 bilingual telephone assistors
       and will continue to evaluate the need for more assistors. The position description for
       AUR Program tax examiners is being revised to include telephone duties. In addition,

                                                                                                  Page 13
                              The Wage and Investment Division
                        Automated Underreporter Telephone Operations
                             Could Improve Service to Taxpayers



      AUR Program management is conducting studies to improve forecasting of call volumes
      to ensure precise scheduling and assignment practices.
Recommendation 3: The Commissioner, W&I Division, should establish specific goals and
measures for the Spanish-language services provided on the AUR toll-free telephone lines.
      Management’s Response: IRS management stated that, with the migration of AUR
      toll-free telephone lines to the Universal Call Routing system, information is not yet
      available to establish additional measures. Once they have sufficient information, they
      will be able to determine whether additional measures are justified and determinable. In
      the meantime, they are committed to their goal of providing excellent service to all
      taxpayers.
      Office of Audit Comment: The AUR toll-free telephone system currently provides
      enough data to provide a rudimentary measure of the effectiveness of providing Spanish-
      language services in the AUR Program. Although it may take time to establish specific
      goals, these measures should be immediately established to ensure that the AUR Program
      is providing excellent service to Spanish-speaking callers.
      The IRS actions to increase the number of bilingual assistors should help improve its
      Level of Service. However, we are concerned that management has not established goals
      to monitor Spanish-speaking caller activity to ensure adequate access to bilingual
      assistors. In FYs 2003–2005, approximately 90,000 Spanish-speaking callers were
      unable to speak with a bilingual assistor. Without goals and actions to monitor the
      Level of Service, AUR Program management will not be able to identify whether
      Spanish-speaking callers have a sufficient level of access to a bilingual assistor. Only
      60,382 (40 percent) of the 150,623 callers requesting a Spanish-speaking assistor in
      FYs 2003–2005 were able to speak to a bilingual assistor.




                                                                                       Page 14
                                    The Wage and Investment Division
                              Automated Underreporter Telephone Operations
                                   Could Improve Service to Taxpayers



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Wage and Investment (W&I)
Division provides timely and adequate toll-free telephone access for taxpayers requesting
assistance on Automated Underreporter (AUR) Program cases.1 Unless otherwise noted, our
limited tests of the reliability of the data obtained from the Internal Revenue Service did not
identify any errors. To accomplish this objective, we:
I.      Determined if the W&I Division AUR Program call sites were managing telephone
        access to ensure timely service to English- and Spanish-speaking taxpayers attempting to
        contact an assistor through the AUR toll-free telephone system.
        A. Interviewed and obtained written documentation from W&I Division AUR Program
           and Joint Operations Center Program management and local AUR Program
           management at each call site (located in Atlanta, Georgia; Austin, Texas; and
           Fresno, California) to determine:
             1. The goals and measures for the AUR toll-free telephone operations.
             2. The reports and/or data used to track and monitor achievement of these goals and
                measures.
             3. The actions taken when problems with answering telephone calls are identified.
             4. The process used to determine the number of English- and Spanish-speaking
                assistors to put on the telephones.
             5. The barriers to increasing the number of available English- and Spanish-speaking
                assistors on the telephones during peak telephone call volumes.
             6. The policies and changes that may affect customer satisfaction levels.
        B. Analyzed W&I Division AUR toll-free telephone operations call data for Fiscal
           Years (FY) 2004 and 2005 and the first 6 months of FY 2006 to measure how long
           taxpayers were on hold before either reaching an assistor or hanging up.
             1. Identified how AUR Program management measures the hold time for taxpayers
                waiting for an English- or Spanish-speaking assistor.



1
 The Internal Revenue Service issues AUR Program notices informing taxpayers of discrepancies it found when
matching information return data received from third parties with income and deductions reported on tax returns.
                                                                                                          Page 15
                       The Wage and Investment Division
                 Automated Underreporter Telephone Operations
                      Could Improve Service to Taxpayers



   2. Analyzed the number of abandoned (hang up) calls, the number of completed
      calls, the average speed of answer, and the average time before a call was
      abandoned to identify any trends based on AUR Program call site and specific
      time periods.
C. Analyzed W&I Division AUR toll-free telephone operations call data for FYs 2004
   and 2005 and the first 6 months of FY 2006 to determine:
   1. The number of callers who requested English- and Spanish-speaking assistance.
   2. The number of callers transferred to an English-speaking assistor when no
      Spanish-speaking assistor was available.
   3. The number of callers who hung up when no assistor was available on the
      Spanish-speaking lines.
   4. The number of busy signals.
D. Interviewed and obtained written documentation from W&I Division Customer
   Account Services Program management to determine the goals and measures for the
   Customer Account Services toll-free telephone operations.
E. Interviewed and obtained written documentation from management at the State of
   California Franchise Tax Board to identify the goals and measures for their
   toll-free telephone operations.
F. Obtained and reviewed the W&I Division AUR Program Customer Satisfaction
   Survey results for FYs 2003–2005 to identify trends in customer satisfaction with the
   service provided by the AUR toll-free telephone system.




                                                                                  Page 16
                             The Wage and Investment Division
                       Automated Underreporter Telephone Operations
                            Could Improve Service to Taxpayers



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Alan Lund, Lead Auditor
Gwendolyn Green, Senior Auditor
Sharon Summers, Senior Auditor
Craig Pelletier, Auditor




                                                                                   Page 17
                             The Wage and Investment Division
                       Automated Underreporter Telephone Operations
                            Could Improve Service to Taxpayers



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Program Manager, Automated Underreporter Program, Wage and Investment Division
   SE:W:CP:RC:AUR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 18
                                    The Wage and Investment Division
                              Automated Underreporter Telephone Operations
                                   Could Improve Service to Taxpayers



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 416,475 taxpayers affected (see page 4).

Methodology Used to Measure the Reported Benefit:
We calculated the average number of assistor-handled Automated Underreporter (AUR)1
toll-free telephone system calls for Fiscal Years (FY) 2003–2005.
        •    (440,105 + 658,978 + 872,295)/3 = 657,126.
We then calculated the average Level of Service2 for FYs 2003–2005.
        •    (69 percent + 73 percent + 71 percent)/3 = 71 percent.
We divided the average Level of Service percentage points into the average number of
assistor-handled AUR toll-free telephone system calls to get the average number of
assistor-handled telephone calls for each Level of Service percentage point.
        •    657,126/71 = 9,255 AUR toll-free telephone system calls per Level of Service
             percentage point.
We then multiplied the average number of assistor-handled AUR toll-free telephone system calls
for each Level of Service percentage point by the difference between an 80 percent Level of
Service and the 71 percent average Level of Service.
        •    9,255 x 9 = 83,295 taxpayer telephone calls.
Had the AUR Program maintained an 80 percent Level of Service in its toll-free telephone
operations, we estimate an additional 83,295 taxpayers3 could have been afforded the opportunity
to resolve their discrepancies in each of the past 3 years. Because this condition will continue to

1
  The Internal Revenue Service issues AUR Program notices informing taxpayers of discrepancies it found when
matching information return data received from third parties with income and deductions reported on tax returns.
2
  The basic Level of Service computation is the number of calls answered divided by the number of available calls.
3
  Unique caller information is not available to determine the impact of repeat callers. Therefore, we made the
assumption that each telephone call equates to one taxpayer.
                                                                                                          Page 19
                               The Wage and Investment Division
                         Automated Underreporter Telephone Operations
                              Could Improve Service to Taxpayers



occur if not corrected, we projected our estimate of the potential number of additional taxpayers
that could be provided service over the next 5 years, which totals 416,475 (83,295 x 5).




                                                                                          Page 20
              The Wage and Investment Division
        Automated Underreporter Telephone Operations
             Could Improve Service to Taxpayers



                                                Appendix V

Management’s Response to the Draft Report




                                                       Page 21
      The Wage and Investment Division
Automated Underreporter Telephone Operations
     Could Improve Service to Taxpayers




                                               Page 22
      The Wage and Investment Division
Automated Underreporter Telephone Operations
     Could Improve Service to Taxpayers




                                               Page 23
      The Wage and Investment Division
Automated Underreporter Telephone Operations
     Could Improve Service to Taxpayers




                                               Page 24
      The Wage and Investment Division
Automated Underreporter Telephone Operations
     Could Improve Service to Taxpayers




                                               Page 25
      The Wage and Investment Division
Automated Underreporter Telephone Operations
     Could Improve Service to Taxpayers




                                               Page 26
